Orrick, Herrington & Sutcliffe LLP

51 West 52nd Street
New York, NY 10019-6142
+1 212 506 5000

January 23, 2020

orrick.com

Via Hand Delivery and E-Filing

E. Joshua Rosenkranz

E jrosenkranz@orrick.com
D +1 212 506 5380
F +1 212 506 5151

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Roxanne Torres v. Janice Madrid and Richard Williamson, No. 19-292

Dear Mr. Harris:
The petitioner, Roxanne Torres, consents to the filing of amicus curiae briefs, in support
of either party or of neither party, at the merits stage in the above-referenced case.

Sincerely,

E. Joshua Rosenkranz
cc: Mark D. Standridge, counsel of record for respondent (via email)

